     APPALACHIAN REGIONAL COMMISSION

     Inspector General’s
Semiannual Report to Congress
         April 1, 2013–September 30, 2013
O
October 30, 2013
            2

M
MEMORAN
      NDUM FOR                   THE
                                   E FEDERAL
                                           L CO-CHAIIR

S
Subject:                         Sem
                                   miannual Rep
                                              port to Conggress

IIn accordancce with the reequirements of the Inspeector Generaal Act Amenndments of 1988, Public Law
1100-504, the Inspector General
                         G        Refo
                                     orm Act of 20 008, Public LLaw 110-4009, and the D
                                                                                      Dodd-Frank W Wall
SStreet Reform
             m and Consu  umer Protecttion Act, Pub blic Law 111-203. I am pleased to ssubmit the O
                                                                                                  Office of
IInspector Geeneral’s Sem
                        miannual Rep port to Congrress.

TThis Semiannual Report to Congresss summarizes the activitiies of our offfice for the 66-month perriod
eending Septeember 30, 20
                        013. During this fiscal period,
                                                p       we issued twentyy nine reportss, followed-uup on
oopen recommmendations and
                        a monitoreed contractorr performancce.

AAlso during this
               t period, the
                           t Inspector General co  ontinued to sserve as a meember of thee Council off the
IInspectors General
            G         on In
                          ntegrity & Effficiency (CIIGIE), its Auudit Committtee and partticipate in National
aand Intergov
            vernmental Audit
                          A      Forumss. The Insp pector Generral continuess to chair a sm
                                                                                          maller OIG group in
oorder to addrress issues directly impacting these offices
                                                   o       and mmade presenttations to twwo groups
rrepresenting ARC granteees.

TThe Inspecto
            or General ActA of 1978, asa amended by the Inspeector Generaal Act Amenndments of 1988,
pprovides thatt this report be
                            b forwarded to approprriate Congre ssional com
                                                                         mmittees withhin 30 days aand that
yyou provide whatever ad   dditional com
                                       mments you consider apppropriate.

I appreciate the
             t Commission’s coopeeration with the Office oof Inspector G
                                                                       General in thhe conduct oof our
ooperations.



IInspector Geeneral

E
Enclosure
                                      TABLE OF CONTENTS



                                                                                                     Page

Executive Summary                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

 I.     Introduction                             .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

 II     Background                                .................................1

Appalachian Regional Commission                      ...............................1

Office of Inspector General                       .................................6

 III.   OIG Activity                               ................................8

Audits, Inspections, Evaluations & Reviews            ...............................8

Investigations                                     . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . 12

Other                                              . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . 12

 IV.    Reporting Fraud, Waste, and Abuse          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

 V.     Legislative & Regulatory Review                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

 VI. Dodd-Frank Legislation                            …..………… ………………………...15

 VII. OIG Audit Issues                                 ……..…………………………………16



Appendices

        A.       Schedule of Reports Issued April 1, 2013 thru September 30, 2013

        B.       Schedule of Audits, Inspections, Evaluation and Review Reports of Questioned or
                 Unsupported Cost

        C.       Schedule of Audit, Inspection, Evaluation and Review Reports with Recommendations
                 that Funds be put to Better Use and Summary of Management Decision

        D.       Definition of Terms Used




                                                      i
                                       EXECUTIVE SUMMARY


ARC grant operations represent the most significant part of ARC’s programs. For this reporting period
our activities included the issuance of twenty nine reports, follow-up on significant recommendations in
prior reports, and monitoring contractor performance of grant reviews. This included 22 grant audits
issued during the reporting period and seven reports dealing with management issues.

Grant management reviews emphasized ARC follow-up on older open Child Agency and ARC
Administered grants and applicable policies and procedures.

Our follow-up review of older open grants administered by Child Agencies identified the need for
continued emphasis on timely follow-up on grants with limited activity. Sixty five grants (open for over
24 months) were identified without any disbursement activity since grant approval with the longest
being 96 months. ARC funds of $19,775,295 were approved for these grants, including $5,677,118 for
18 grants with no ARC disbursements at least four years after approval.

Our review of ARC administered grants identified substantial progress with respect to inactive older
grants. The ARC grant management system identified 14 grants totaling $1,467,679 for which no
disbursements were noted during the 24 months since approval.

Other issues relating to timely follow-up of open grants status included identifying grants with expired
end dates and increased use of controls available to initiate action on inactive grants, including increased
use of ARC guidelines that allow for action on projects not started within 18 months of approvals.

Headquarters and program issues related to funding of technical assistance grants, guidance for State
administered grants and additional performance issues for Local Development District and State
Technical Assistance grants. State funding requests for technical assistance funds were substantially
reduced in several cases based on recommendations.

Individual grant reviews disclosed that grants were generally implemented in accordance with applicable
regulations and project objectives. Recommendations pertained to technical assistance grant funding,
accounting systems, progress reports, timekeeping, performance measures, contracting, classification of
expenditures and separation of grant accounts.

Decisions and/or OMB guidance with respect to implementing certain sections of Dodd-Frank
Legislation have not been issued. The primary issues are the designation of full Commissions/ Boards
as Agency Heads at designated Federal Entities (DFEs), such as ARC, who’s Commission, consists of
primarily Non-Federal Officials and the status of Federal OIG staff, including the IG.

The IG continues to chair a group of smaller OIGs to address issues that have particular impact on these
offices. The IG is also an active member of the Council of Inspectors General and its Audit and
Inspections and Evaluations Committees and actively participated with respect to OMB’s major grant
reform initiative and updating of the Strategic Plan for the National Intergovernmental Audit Forum.




                                                     ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                    Reporting Requirements


Section 4(a)(2)   Review of legislation and regulations                                  Page 14

Section 5(a)(1)   Problems, abuses, and deficiencies                                     Pages 8-11

Section 5(a)(2)   Recommendations with respect to problems, abuses, and deficiencies Pages 8-11

Section 5(a)(3)   Prior significant recommendations not yet implemented                  *

Section 5(a)(4)   Matters referred to prosecutive authorities                            *

Section 5(a)(5)   Summary of instances where information was refused                     *
and    6(b)(2)
Section 5(a)(6)   Listing of audit reports showing number of reports and dollar          App A
                  value of questioned costs
Section 5(a)(8)   Statistical table showing number of reports and dollar value           App B
                  of questioned costs
Section 5(a)(8)   Statistical table showing number of reports and dollar value           App C
                  of questioned costs
Section 5(a)(8)   Statistical table showing number of reports and dollar value           App D
                  of questioned costs
*      None.

                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                    iii 
I.        INTRODUCTION

The Inspector General Act Amendments of 1988, (Pub. L. No. 100-504) provides for the establishment
of an Office of Inspector General (OIG) at Designated Federal Entities (DFEs), including the ARC. The
ARC OIG became operational on October 1, 1989, with the appointment of an IG and provision of
budgetary authority for contracted audit and/or investigation activities.


II.       BACKGROUND


A.        APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965, (Pub.L. No. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-term
economic development on a coordinated regional basis in the 13 Appalachian States. The Commission
represents a unique experiment in partnership among the Federal, State, and local levels of Government
and between the public and private sectors. It is composed of the Governors of the 13 Appalachian
States and a Federal representative who is appointed by the President. The Federal representative serves
as the Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-
Chair.

   -    Through joint planning and development of regional priorities, ARC funds are used to assist and
encourage other public and private resources to address Appalachia's unique needs. Program direction
and policy are established by the Commission (ARC Code) with the vote of a majority of the State
members and the affirmative vote of the Federal Co-Chair. Emphasis has been placed on highways,
infrastructure development, business enterprise, energy, human resources, and health and education
programs.

  -    To ensure that funds are used effectively and efficiently, and to strengthen local participation,
ARC works with the Appalachian states to support a network of multicounty planning and development
organizations, or local development districts (LDDs), throughout the Region. The 73 LDDs cover all
420 counties in Appalachia. The LDDs’ roles include identification of priority needs of local
communities and assisting with participation in ARC progress.

   -    Administratively, the Commission has a staff of 52 persons that includes 45 Commission
employees responsible for program operations, and the office of the Federal Co-Chair that includes the
three person OIG staff. The Commissions’ administrative expenses, including salaries, are jointly
funded by Federal and State funds.

      -   The Commission's appropriation for FY 2013 was $64.9 million.

Although Congress changed the funding method for the Appalachian Development Highway System
(ADHS) in July 2012, ARC continues to support and participate in completion of the ADHS including
fulfilling planning and approval responsibilities with respect to approximately two billion dollars of
funds remaining available prior to the new legislation.

                                                   2
ARC’s non-ADHS funds are distributed to state and local entities in accordance with an allocation
formula intended to provide fair and reasonable distribution of available resources. ARC staff has
responsibilities for program development, policy analysis and review, grant development, technical
assistance to States, and management and monitoring.

In order to avail itself of federal agency expertise and administrative capability in certain areas, ARC
often relies on other departments and agencies for program administration, especially with respect to
highways and infrastructure projects. For example, the Appalachian Regional Development Act
authorizes the Secretary of Transportation to administer the Commission's highway programs, with the
Commission retaining responsibility for priorities, highway locations, and fund allocations. ARC relies
on Child Agencies, including the Departments of Agriculture, Commerce and Economic Development
Administration and the Tennessee Valley Authority, to administer and monitor construction related
grants.




                                                    3
ARC
  C ORGAN
        NIZATION
               N CHART
                     T




        4
 
    5
 
 
B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent Federal audit and investigative unit that reports directly to the Agency
Head.


Role and Authority

The Inspector General Act of 1978, (Pub.L. No. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing and
detecting fraud and abuse in, the program and operations of the establishment. In this regard, the IG is
responsible for keeping the Agency Head and Congress fully informed about the problems and
deficiencies in ARC programs and operations and the need for corrective action. The IG has authority to
inquire into all ARC programs and activities that are federally funded. The inquiries may be in the form
of audits, surveys, investigations, inspections, evaluations, personnel security checks, or other
appropriate methods. The two primary purposes of these inquiries are (1) to assist all levels of ARC
management by identifying and reporting problem areas, weaknesses, or deficiencies in procedures,
policies, program implementation, and employee conduct and (2) to recommend appropriate corrective
actions.


Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are provided under the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operation of the OIG neither replaces established lines of operating authority
nor eliminates the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.


Funding and Staffing

The OIG funding level for FY 2013 was $609,000 after sequestration. Staffing consists of the Inspector
General, an Assistant Inspector General for Audit, and a Confidential Assistant. Grant review activities
continue to emphasize use of contracted services (e.g., independent public accounting firms or other
OIG offices) supplemented by programmatic and performance reviews directed by OIG staff.

In order to comply with Pub.L. No. 110-409, the Inspector General Reform Act of 2008, the OIG
funding for FY 2013 included reimbursement of other IGs for counsel, audit and investigative services
via Memorandums of Understanding. We use Treasury IG for Tax Administration for legal services.
We use other OIG offices to provide investigative services as needed.


                                                    7
III.   OIG ACTIVITY


A. Audits, Inspections, Evaluations and Reviews

Grant reviews focused on grant implementation and administration in line with ARC and OMB policies
and procedures. Management reviews focused on headquarters program and grant management
activities.

Headquarters reviews focused on older open grants that were inactive including no initial disbursements,
for at least 24 months, funding of State Technical Assistance (TA) grants, State Administered grants and
Local Development District (LDD) and State TA grant performance measures.

A follow-up review of older open grants approved by ARC but administered by other a basic agencies
(child agency) disclosed progress with respect to follow-up actions and controls to identify grant status
and potential actions. De-obligations or reduced budget requests of approximately $411,000 resulted
from ARC follow-up actions and grantee reduced budget requests. Actions are pending with respect to
approximately $766,000 identified by a basic agency as subject to de-obligation.

The follow-up review identified 65 grants with ARC funding approximating $19.9 million for which no
initial disbursements had been made since grant approval at least 24 months prior to September 30,
2013. The periods ranged from 24-96 months since approval and included 18 grants with ARC funds of
$5,677,118 for which no ARC funds had been disbursed at least four years since grant approval and
obligation.

Nine cases with initial disbursements having balances of $304,868 but no reported disbursements for 14
to 74 months were also noted.

For ARC administered grants, 14 grants with obligations totaling $1,457,679 were noted as having no
disbursements with grant approval ranging from 24 to 71 months prior to September 30, 2013.

We recognize that basic agency grants are construction related and in many cases project starts are
delayed by many factors. However, we used 24 months as a reasonable period for obtaining grant status
for ARC and Basic Agency administered and assessing the need for any additional action in line with
ARC guidelines that provide that, at the request of a State, the Commission may revoke or revise its
approval of any project not underway within 18 months after the date of approval of such a project.

ARC action, including initiation of an annual Basic Agency Monitoring Report (BAMR), provides an
improved basis for effective follow-up on grants with no ARC disbursements, including assessments
about potential grant actions such as cancellation and de-obligations. Also this report identifies long un-
liquidated obligations, justifications for lengthy delays and continued need for ARC funds.

We recognize that basic agency administered grants with no disbursements for lengthy periods, such as
four years after approval, make up a tiny percentage of ARC grants but recommend particular attention
to these grants to identify the potential to use the obligated funds for other needed projects.

For ARC administered grants, adherence to end dates was noted as particularly important since, without
timely, justified and documented extensions, expenditures incurred after identified end dates are
generally considered un-allowable expenses. Follow-up actions had been initiated on 25 of 45 grants

                                                     8
with expired end dates noted in our prior report and the 20 grants for which actions were not initiated
had ARC balances approximating one million dollars.

A management review identified a need for improved approval and obligation of ARC grants for State
Technical Assistance grants that provide funding for States to implement economic development
initiatives. Annual approvals and obligations are often finalized despite States having large amounts of
available funds from prior year grants. In three instances States significantly reduced TA budget
requests or de-obligated funds approximating $260,000 subsequent to budget discussions during on-site
audit work.

ARC also authorizes States to administer construction related grants with four states currently utilizing
this authority. Our recommendation centered on ARC developing formal guidance with respect to State
administration of the approved grants.

ARC recently established performance measures for Local Development District and Technical
Assistance grants and recommendations included identification of additional performance measures for
these grants, entering of grant information in ARC.Net and inclusion of these grants in the universe for
validation by ARC staff assigned to validating grantee performance measures results.

Audits of 22 grants with values totaling about six million dollars reported overall implementation of
grants in accordance with policies, procedures and regulations. Recommendations emphasized funding
requests in line with needs, timely payment requests, accounting system improvements including
availability of time keeping records, separation of grant approvals, contract completion, support for
reclassification of expenditures, timely progress reports and implementation and reporting on
performance measures.


ARC Financial Statement Audit

The financial statement audit for FY 2012 was issued with a clean opinion. The prior four reports have
also been issued with a clean audit opinion since ARC adopted federal financial reporting rules in 2007.

The Financial Statement audit for FY 2013 is in progress and timely completion is expected.


Peer Review

Offices of the Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with government auditing standards (GAS). The next audit peer
review of ARC OIG is scheduled for FY 2014.

The current audit peer review process, as legislatively mandated, assesses compliance with auditing
standards but does not address issues impacting the efficiency and effectiveness of audit operations
which comprises the largest segment of OIG offices.

The IG continues to recommend to the Council of Inspector General and Legislative Staff that OIG peer
reviews be revised to incorporate assessments of key OIG operational elements such as: planning; timely

                                                    9
reporting; staff development, including training, utilization and supervision; audit follow-up and
inclusion of actual monetary results in Semi-Annual and Annual OIG reports based on implementation
of recommendations


B. INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the Federal
Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the results of
investigations may be referred to the appropriate Federal, State, or local prospective authorities for
action.

C. OTHER

Smaller OIG Groups

Smaller OIG offices have some significantly different operational concerns than larger OIG offices in
trying to maintain effective and efficient oversight of agency programs. One challenge involves the
significant human and capital resources being allocated to the ever growing number of mandated
reviews.

The IG is the current coordinator/chair of this group that meets periodically to discuss such issues and
recommends actions/best practices to facilitate smaller OIG operations.


Requests for Information

Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their audited agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit and inspection activities for of all federal OIG offices.

Appalachian Development Highway System (ADHS) Audits

Since Fiscal Year 1999, ADHS has been funded by the Highway Trust Fund, which is administered in
part by the U.S. Department of Transportation (DOT). ARC retains certain programmatic
responsibilities, but the funding source is the Highway Trust Fund. Under new legislation the ADHS is
a part of a larger Surface Transportation Program grant to Appalachian states, with the states using the
funding at their own discretion.


Implementation of OIG Reform Act

The OIG has implemented all of the requirements of Pub.L. No. 110-409 the Inspector General Reform
Act of 2008. A Memorandum of Agreement for Counsel Services is in place with the Treasury
Inspector General for Tax Administration.

                                                    10
Going Green

ARC management has implemented green measures within the organization's internal operations.
Examples include a document scanning system that has been linked to ARC’s e-mail system and an
expansion of ARC net to include operational elements. ARC continues to encourage state partners to
move to a paperless application process. Reduction in paper utilization can reduce cost, improve the
timeliness of management decisions through better document storage and retrieval, and helps to reduce
demands on our earth's ecological systems. Our office, in alignment with management's initiative, is
committed to “going green” and we continue to work toward that end.


IV.    REPORTING FRAUD, WASTE, AND ABUSE

A region wide toll-free hotline is maintained to enable direct and confidential contact with the ARC
OIG, in line with governmental and longstanding OIG initiatives as identified in the IG Act of 1978; to
afford opportunities for identification of areas subject to fraud, waste, or abuse. Also, in accordance
with the Inspector General Reform Act of 2008, the ARC OIG implemented another communication
channel allowing anonymous reporting of fraud, waste or abuse via a link on our website’s home page.
The web link is, http://ig.arc.gov/.


V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG reviews legislation germane to ARC, OIG and the OIG community. Our comments are
provided, as appropriate to agency officials, and/or to the CIGIE for incorporation with comments from
all other OIGs.



VI.    DODD-FRANK LEGLISATION – Reporting to Full Commission

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Pub. L. No.111-203) amended the
Inspector General Act changing the entity head of ARC from the Federal Co-Chair to the
Commission. The Office of Management & Budget (OMB) has not yet provided guidance on these
changes through the required notice and publication of the List of Designated Federal Entities (DFEs)
which are to be published annually under the IG Act. This Act provides that the Inspector General report
to the full Commission that includes the Federal Co-Chair and 13 Appalachian Governors.

We believe ARC and other economic development Commissions are among the few DFEs that have a
majority of non-Presidentially (or non-federal) appointed Commission members. Although the Dodd-
Frank legislation provides tenure protection to DFE IG’s, a question remains as to whether some of the
provisions were intended to apply to Commission’s composed primarily of non-Federal, non-
Presidentially appointed members. In addition to surfacing the issue of non-Federal appointees authority
to employ IG’s, whose primary responsibility is to oversight the use of Federal funds, the related issue
of the federal versus the non-federal status of the OIG Office, needs Congressional or OMB resolution.

We have recommended that DFE’s having a majority of non-Presidential appointees as Commission or
Board members be exempt from the OIG provisions in the Dodd-Frank Act, or if the Agency Head
remains the full Commission that the OIG Office, including the IG and current Federal OIG Staff,
remain Federal.
                                                  11
Pending additional OMB guidance or direction on Dodd-Frank issues that impact the ARC OIG the
Commission considers the legislated requirement for the entire Commission to be the Agency Head as
implemented. Decisions with respect to the Federal/non-Federal status of the OIG have been delayed
until the final effect of the Dodd-Frank legislation has been settled.


VII.   OIGs Audit Performance and Credibility Issues

OIGs audit units have provided very valuable services to the taxpayers including significant monetary
benefits and major program improvements. However, as with any organization, improvements are
possible and within the OIG community there are various areas where OIG audit performance and
credibility can be significantly improved by addressing the following issues.

       -   Develop peer review guides to assess OIG audit efficiency and effectiveness that highlights
           key operational elements, such as planning field work, report timeliness, staff utilization and
           training, supervision, audit follow-up and actual results. The required peer review of
           compliance with audit standards does not address the key operational elements that determine
           OIG efficiency and effectiveness.

       -   Identify outcome based performance measures that, over a multi-year period, identify actual
           savings in relation to the multi billions of potential savings reported annually based primarily
           on questioned and undocumented costs with low actual savings potential. OIG Semi-Annual
           reports identify agreed with disallowances and tracking and reporting agency actions such as
           establishment of claims and recoveries appears practical and reasonable.
           A recent OIG survey of OIG metrics noted that 13 of 14 respondents to a question as to how
           they measured return on investment responded the basis was agreed with recommendations.
           A better basis for identifying the return on investment appears appropriate, such as
           implemented recommendations and actual rather than potential savings.

       -   Develop CIGIE guidance to ensure consistent identification of implemented
           recommendations. OIGs appear to use different criteria regarding implemented
           recommendations, ranging from actually confirming the recommendation was implemented,
           to obtaining implantation plans, to accepting agreement with the recommendation as
           sufficient to consider the recommendation implemented.

       -   There is a significant need to broaden the core competencies with respect to the classification
           of “auditor”. Currently the GS-511 auditor classification requires 24 credits of accounting or
           an equivalent level of accounting credits or experience. However, the large majority of OIG
           audits performed by OIG audit staff are performance, not financial, related for which
           attributes such as evaluation, analysis, oral and written communications and critical thinking
           skills are far more important than accounting for effective performance auditing.


The last issue is currently being studied by the OIG community and OIG support for the addition of a
“performance auditor” classification identifying educational and experience attributes most applicable to
performance auditing would better assure the employment of professional staff with backgrounds suited
to the current and future audit environment.



                                                    12
                                                                                                  APPENDIX A



             SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       ISSUED APRIL 1, 2013 TO SEPTEMBER 30, 2013




Report No.                    Report Title/Description         Program Dollars or   Questioned/      Funds to Better
                                                                Contract/Grant      Unsupported         Use***
                                                                   Amount*            Costs**


             Home Instruction for Parents of Preschool
 13-07                                                            $125,000
             Youngsters (HIPPY)


 13-12       Upper Cumberland Development District, TN           $125,257



13-14a                                                            $421,616
             NW Georgia Regional Commission

 13-15                                                            $500,000
             Early Steps to School Success


 13-16       Regional Labor Market Survey, KY                     $462,773




 13-20       TN Technology University Regional Development        $500,000
             Initiative

 13-21                                                            $570,857
             SEDA Council of Governments, PA

 13-22                                                            $293,678
             Mini-grants for Capacity Building, TN


 13-23       Develop Energy Sources on Mine – Scarred Lands,      $400,000
             WV

 13-24                                                            $515,169
             NC Technical Assistance

 13-25                                                            $300,000
             Mississippi University For Women SMART BIZ

                                                                  $ 244,538                            $82,000
 13-26       Technical Assistance Grant MS
                                                            $179,000
13-27   SC Appalachian Council of Government

                                                            $200,000     $127,440
13-28   Tuskegee Human and Civil Rights Center, AL

                                                            $150,000
13-29   School Community Oral Health, WV
        Southern Tier East Regional Planning Development
13-30   Board, NY                                           $378,000



13-31                                                       $250,000     $13,757
        Utility Asset GIS for Eastern Ohio
        Buckeye Hills – Hocking Valley Regional
13-32   Development District, OH                            $217,000      $3,347


13-33
        Consolidated Technical Assistance Grants

13-34                                                       $258,285                $79,201
        NY Technical Assistance

13-35
        Information Security Evaluation

13-36
        Information Security Evaluation

13-37                                                       $264,926     $15,500
        Garrett College STEM Program, MD

13-38                                                      $19,775,275
        Older Basic Agency Administered Grants

13-39                                                      $1,773,420
        Older ARC Administered Grants

13-40
        State Administered Grants
        Local Development District and Technical
13-41   Assistance Performance Measures


13-42                                                       $150,000      $1,970
        SW Pennsylvania Commission
        SW PA Enterprise Development
13-43                                                       $400,000      $7,065


Total                                                      $28,454,794   $165,436   $161,201
                                                                             APPENDIX B

                     SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                                OF QUESTIONED OR UNSUPPORTED COSTS

                                          No. of      Questioned        Unsupported
                                          Reports       Costs           Costs



A.       For which no management            0
decision was made by the
commencement of the reporting period



B.        Which were issued during the      2
reporting period



             Subtotals (A + B)              2


C.       For which a management
decision was made during the reporting
period



     (i)     dollar value of disallowed
     costs




     (ii)  dollar value of costs not
     disallowed


                                                                                 1
D.        For which no management           6                         $165,436
decision has been made by the end of
the reporting period



E.      Reports for which no
management decision was made within
6 months of issuance




      1
           Awaiting necessary documentation from grantee
                                                                                         APPENDIX C


       SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
      RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                               MANAGEMENT DECISIONS




                                                                         No. of
                                                                         Reports   Dollar Value


 A.     For which no management decision was made by the                   0            0
        commencement of the reporting period

 B.     Which were issued during the reporting period                      2        $161,201

        Subtotals (A + B)                                                  2        $161,201

 C.     For which a management decision was made during the
        reporting period

        (i)    dollar value of recommendations that were agreed to by
               management

               --based on proposed management action                       2       $411,344 1

               --based on proposed legislative action                      0            0


        (ii)   dollar value of recommendations that were not agreed to     0            0
               by management



 D.     For which no management decision has been made by the end          0            0
        of the reporting period

 E.     Reports for which no final management decision was made            0            0
        within 6 months of issuance


1. Actions resulting from ARC follow-up on grants recommended for follow-up in prior reports
or identified during reporting period. Available funds to be used for additional needed
projects in Appalachia. Follow-up actions on current period reports will be identified in
subsequent semi-annual reports.
                                                                                          APPENDIX D


                                  DEFINITIONS OF TERMS USED



The following definitions apply to terms used in reporting audit statistics:

Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
Cover pho
        otos courtesy of
                      o the U.S. Naational Park Se
                                                 ervice (left to rright): Big Sou
                                                                                uth Fork, Tenn
                                                                                             nessee;
Shenandooah National Park;
                     P     Big South
                                   h Fork, Tennesssee




                                  Ap
                                   ppalachian Regional
                                              R        Coommission

                                      Office of Inspector General
                                1666 Connecticu
                                              ut Avenue, NNW, Suite 7000
                                     Washington n, DC 200009-1068
